Disclosure
MasterCard Standard
INTEREST RATES AND INTEREST CHARGES

Annual Percentage Rate (APR) for Purchases of
Goods and Services

1.99% Introductory APR for the first 6 months from the date the card is issued. After
that, your APR will be from 9.70% to 18.70% based on your creditworthiness
and subject to other credit requirements established by Oriental Bank (“Oriental”). This APR
will vary with the market based on the U.S. Prime Rate (“Prime Rate”).1

APR for Balance Transfers of Other Financial
Institutions

APR for Cash Advances

1.99% Introductory APR for the first 6 months from the date the card is issued. After that,
your APR will be from 9.70% to 18.70% based on your creditworthiness and subject to other
credit requirements established by Oriental. This APR will vary with the market based on
the Prime Rate.1
22.74%, this APR will vary with the market based on the Prime Rate.
29.99%
This APR will apply if you make a late payment.2

Penalty Rate and when it Applies

How Long Will the Penalty APR Apply? If your APRs are increased for this reason, the
Penalty Rate will remain in effect until the account becomes current and the Bank receives
6 consecutive minimum payments on or before their payment due dates.

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will not charge you
interest on new Purchases if you pay your entire balance by the due date of each month.
However, we will begin charging interest on cash advances and balance transfers from the
disbursement date of these transactions.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.50.

For Credit Card Tips from the Consumer Financial
Protection Bureau (“CFPB”)

To learn more about factors to consider when applying for or using a credit card, visit the
website of the CFPB at https://www.consumerfinance.gov/learnmore

FEES
Annual Fees

None
$10 Additional Card issuance Fee Per Card (If applicable)

Transactional Fees
•
Cash Advances & Balance Transfers
•
Foreign Transactions
Penalty Fees
•
Late Payment Fee
•
Returned Check Fee

2% of the amount of each transaction (minimum $2.00; maximum $10.00)
1% of each transaction in U.S. dollars
Up to $35.00
$10.00

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases of
goods and services)”.
Loss of introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
1

Prime Rate: The abovementioned variable rates are accurate based on a 3.25% Prime Rate. We added a margin of
6.45% to 15.45% to the Prime Rate in order to determine Purchase of Goods/Services and Balances Transfers APRs.
2

Late payment means when a minimum payment is not received within a period of 60 consecutive days from its payment
due date.
Disclosed information about applicable rates, APRs and charges of the MasterCard Standard is accurate as of March
2020. This information may have changed. For updated information in connection with this card you can write us at P.O.
Box 195115, San Juan, P.R., 00919-5115 or call us at 1.800.981.5554.

Oriental Bank is Member FDIC.

